                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I06090029
                                                                                11          Page 1bf 1



        This case was initiated based upon information provided by an attorney who represented a former
        member of an association board in a civil lawsuit against the current Executive ~irector'of the
        association2. During depositions in the civil lawsuit, it came to light that the association
        improperly used funds from a National Science Foundation (NSF) grant3to pay for general
        expenses for the association. The attorney notified us that the association submitted inaccurate
        Federal Cash Transaction Reports (FCTR) to NSF.

        Our investigation confirmed that under the tenure of the current Executive Director, the
        association used NSF funds for purposes unrelated to the grant. We also found that the r
        association submitted FCTRs which inaccurately showed that the association incurred expenses,
        when in fact, the association incurred only minimal expenses during this time period. After the
        civil deposition, the association returned the questionable funding to NSF and submitted
        amended FCTR to reduce the reported expenditures on the grant. Our investigation was initiated
        after the association returned the funds to NSF.

        The Executive Director admitted that the association used NSF Funds for general expens&, and
        that the association took corrective action to return the funds after he became aware of the misuse
        of NSF funds. The Board of Directors of the association was notified of the financial problems
        related to the NSF grant funds and the Board issued a letter of reprimand to the ~xecutive"
        Director. The Board also implemented internal safeguards to ensure that the association will
        properly monitor and report grant expenditures in the future. The Executive Director provided a
        copy of the letter of reprimand and the new internal controls related to handling grant funds.

        After reviewing all expenses that remained against the NSF grant, we detected two small charges
        that were inadvertently posted to the ledger of expense for the grant. The association~ret~ed
        these funds to NSF. We determined that further action was not warranted because the funds in
        question were returned to NSF; the association changed the internal accounting procedures, it
        does not have any current awards; and it has limited award history with NSF.

        Accordingly, this case is closed.




SF OIG Form 2 (1 1/02)
